No. 19-309
IN THE

Supreme Court of the United States
GOVERNOR OF DELAWARE,

Petitioner,

v.
JAMES R. ADAMS,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals
For the Third Circuit
AFFIDAVIT OF SERVICE
STATE OF NEW YORK,
COUNTY OF NEW YORK,

)
) ss.:
)

ROBERT E. NOVICK, being duly sworn, deposes and says, pursuant
to Supreme Court Rule 29.5(c):
I am over the age of 18 years, not a party to this proceeding and am
associated with the Firm of Cravath, Swaine & Moore LLP, 825 Eighth
Avenue, New York, NY 10019.
On the 28th day of January, 2020, pursuant to Supreme Court Rule
29.3, I served the BRIEF OF THE BRENNAN CENTER FOR JUSTICE
AT NYU SCHOOL OF LAW AS AMICUS CURIAE SUPPORTING
PETITIONER, upon each of the below-listed Counsel for Petitioner and
Respondent (who constitute all the parties required to be served) by
delivering three (3) true copies of the Brief, securely enclosed in prepaid and

properly addressed wrappers, to an agent of FedEx, a commercial courier, for
next business day delivery; to wit: Wednesday, January 29, 2020:
Michael W. McConnell
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(202) 879-5000
mcconnell@law.stanford.edu
Counsel for Petitioner John C. Carney, Governor of
Delaware
David Lee Finger
Finger & Slanina, LLC
1201 N. Orange St. 7th Fl.
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgroup.com
Counsel for Respondent James R. Adams

In addition, on the 28th day of January, 2020, I electronically
transmitted the Brief to each of the Counsel of Record at the following email
addresses:
mcconnell@law.stanford.edu
dfinger@delawgroup.com

Robert E. Novick

Subscribed and sworn to before me this 28th day of January, 2020.

Notary Public

